ALLIANCE CATHOLIC CREDIT UNION
Card Services: P.O. Box 4519, Carol Stream, IL 60197-4519

1.800.828.3901

 VISA Credit Card and Truth-in-Lending Disclosure. By signing an application for the VISA Card or by using the VISA card,
you agree to everything in this Agreement and Disclosure.
In this Agreement, the words “you” and “your” mean or refer to each and all
persons who have applied for the Card or Cards by signing this Agreement. Every person
accepting the use of a VISA Card(s) represents that he or she is a member of this credit
union. “Card” means the VISA Credit Card or Cards and any duplicates and renewals
thereof or substitutions thereof we may issue. “Account” means your VISA Credit Card
line of credit loan account with us. “We”, “us”, and “ours” means or refers to this credit
union. This Agreement is a Truth-in-Lending Disclosure Statement as well as a contract.
1. Responsibility – If we approve the loan and issue you a Card, you promise to repay all
debts and the FINANCE CHARGE thereon arising from any authorized use of the Card.
You agree not to let someone else use the Card. If you do, you are agreeing with us that you
authorize all such use of the Card. For example, you are responsible for charges made by
yourself, your spouse and minor children. You are also responsible for charges made by
anyone else to whom you give the Card, and this responsibility continues until the Card is
recovered. Of course, once you notify us, we will take prompt steps to try to prevent any
further Card use by that person. If this account is joint; that is, each of you, separately and
jointly with each other, are liable for all debts on the Account and FINANCE CHARGE
thereon. Your obligation to pay all such debts and FINANCE CHARGE thereon continue
even though an agreement, divorce decree or other court judgment to which we are not a
party, may direct that only one of you, or some person other than you (or both of you) may
pay such debts and FINANCE CHARGE.
Any one of you may close this account at any time but no such action shall relieve you of
any liability for amounts then owing or for Finance Charges and other fees and charges that
may accrue due to amounts then owing.
2. Credit Line – If we approve your loan application, we will establish a self replenishing
line of credit for you and will notify you of the amount thereof (“credit limit”) in the mailer
in which we will send you with your Card. That mailer is hereby incorporated herein as
part of this Agreement. You agree not to let your account balance exceed such amount. In
the event that you do exceed your credit limit, you will be in default and you must pay the
excess or you will be in default. Each payment you make on the Account will replenish your
credit limit by the part of that payment which is applied to principal. You may request an
increase in the credit limit only by a written application, which must be approved by us.
We may reduce your credit limit from time to time or may, with good cause, revoke your
Card and terminate this Agreement; in either event, we will give you written notice of such
action. “Good cause” includes your failure to satisfy the terms of this Agreement or our
adverse reevaluation of your creditworthiness. However, you may terminate this Agreement, at any time and for any reason, by giving us written notice. Nevertheless, termination
by you or by us does not affect your obligation to pay all debts and FINANCE CHARGE
thereon arising from authorized use of your Card. The Cards remain our property and you
must recover and surrender to us all cards upon your request or upon termination of this
Agreement.
3. Using the Card – We will send you a Card or Cards embossed as you have directed.
As soon as received, each Card must be signed (in the space provided on the back) by
the person whose name is embossed thereon. That signature must be in the same form
as embossed on the front of the Card. To make a Purchase or Cash Advance, present
the Card to a participating VISA plan merchant or financial institution, or to us, and
sign the sales draft or cash advance draft which will be imprinted with your Card or
generated after your Card’s number has been magnetically read or otherwise provided.
Please note that we are not responsible if a particular VISA plan merchant or financial institution refuses to honor your Card. You will receive a copy of the draft which
you should retain to verify your monthly statement. We will, upon request, furnish you
with a copy of a draft at a charge of $5.00 per copy. You agree not to make or permit
to be made any illegal transactions on your Account through use of a Card, a check or
in any other manner. We may deny authorization for any Internet gambling transaction.
4. Monthly Payment – A statement will be mailed every month showing your “Previous
Balance” of “Purchases” and Cash Advances,” the transactions posted to your Account
since the last statement, the “New Balance” of “Purchases and “Cash Advances” the
FINANCE CHARGE due to the date of the statement, the “Minimum Payment’
required, and the remaining part of the credit limit still available. You must pay at least the
Minimum Payment shown on your statement on or before the due date shown on your
statement; the due date will be no earlier than 28 days after the closing date of the statement. Of course, you may pay any amount greater than the Minimum Payment, including
the entire New Balance on the statement, without any penalty for prepayment. And you
can make payments on the Account as often as you wish. For the VISA credit card, the
Minimum Payment will be either (a) 2.0% of your New Balance or $25.00, whichever is
greater, or (b) your full New Balances, if they total less than $25.00; provided, however, the
Minimum Payment shown on your statement will also include any unpaid portions of
Minimum Payment(s) shown on earlier statement(s). In addition, if at any time your total
New Balances exceed the credit limit, you must pay us that excess immediately. We may
select and change the method by which payments and credits are allocated to your account
at our sole discretion; however, payments will be allocated to billed amounts before they are

allocated to unbilled amounts (transactions incurred since your last statement) and
payments
amounts
in
excess
of
the
required
minimum
monthly
payment will be applied to higher rate balances before they are applied to
lower rate balances. Payment for more than the minimum amount due will be
accepted as a single payment for the month; the amount over the minimum is not applied
toward future payments due.
5. Finance Charge – A Finance Charge will be imposed on Credit Purchases only if
you elect not to pay the entire New Balance shown on your monthly statement for the
previous billing cycle on or before the payment due date shown on your statement. If
you elect not to pay the entire New Balance shown on your previous monthly statement
on or before the payment due date shown on that statement, a Finance Charge will be
imposed on the unpaid average daily balance of such Credit Purchases from the
previous statement closing date and on new Credit Purchases from the date of posting
to your account during the current billing cycle, and will continue to accrue until the
closing date of the billing cycle preceding the date on which the entire New Balance is
paid in full or until the date of payment if payment occurs after the payment due date
shown on the billing statement for that billing cycle. However, if during the previous billing cycle you paid all amounts owing in full by the Payment Due Date, then in
the current billing cycle you will have a free interest period on the amount of the New
Balance of Purchases remaining from the previous billing cycle that is paid by the
Payment Due Date based on our payment allocation method.
The Finance charge for a billing cycle is computed by applying the monthly Periodic
Rate to the average daily balance of credit purchases, which is determined by dividing the sum of the daily balances during the billing cycle by the number of days in the
cycle. Each daily balance of Credit Purchases is determined by adding to the outstanding unpaid balance of Credit Purchases at the beginning of the billing cycle
(excluding amounts described in the last sentence of the preceding paragraph) any new
Credit Purchases posted to your account, and subtracting any payments as received and
credits as posted to your account, but excluding any unpaid Finance Charges.
A Finance Charge will be imposed on Cash Advances from the date of the cash
advance or from the first day of the billing cycle in which the Cash Advance is posted to
your account, whichever is later, and will continue to accrue until the date of payment.
The average daily balance is determined by dividing the sum of the daily
balances during the billing cycle by the number of days in the cycle. Each daily balance is
determined by adding to the Previous Balance for cash advances (the outstanding cash
advance balance on your account at the beginning of the billing cycle), any new cash
advances received and subtracting any payments as received or credits as posted to your
account, but excluding any unpaid finance charges.
FINANCE CHARGE (INTEREST) for your Account is calculated at the Periodic Rate
and corresponding Annual Percentage Rate disclosed to you in a separate letter mailed to
you with this Agreement.
Payments
Payments made to your account will be applied in the following order: Fees and
Finance Charges; Previously Billed Purchases; Cash Advances; New Purchases. Any
communications concerning a disputed balance, including an instrument tendered as
full satisfaction of amounts owing under this agreement, must be mailed to the following
address: Alliance Catholic Credit Union, ATTENTION: DISPUTED CREDIT CARD
PAYOFF DEPARTMENT, 9300 Cooper St, Taylor, MI 48180.
6. Credit – If merchants who honor your card give you a credit for returns or adjustments,
they will do so by processing a credit which we will post to your Account. You should keep
your copy of the credit slips to verify your monthly statement. If your credits and payments
exceed what you owe us on Account, we will credit such excess to the Account, and if the
amount is $1.00 or more, we will refund it after 6 months or upon your written request.
7. Foreign Transactions – Purchases and cash advances made in foreign countries and
foreign currencies will be billed to you in U.S. dollars. The exchange rate for transactions in a foreign currency will be a rate selected by VISA from the range of rates
available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives, or the government
mandated rate in effect for the applicable central processing date, In addition, as provided in
Section 19, we will separately bill you an up to 1% International Transaction Fee, up to 1%
of the total transaction amount.
8. Loss or Theft of Card – You agree to notify us immediately upon discovering that
your Card has been lost or stolen. If you have your card stolen or it gets lost after
normal credit union office hours, immediately call 1-800-828-3901 and make a report;
then during normal business hours at the credit union, notify us in writing so that your
account can be closed and a new card issued.

NOTICE: See reverse side for important information regarding your rights to dispute billing errors.

9. Default – You will be in default if you fail to make at least the “Minimum Payment”
shown on a monthly statement by the due date shown on the statement. You will also be
in default if (a) you breach any other conditions of the Agreement, (b) if we in good faith
determine that your creditworthiness (which includes you ability to repay us) has become
unsatisfactory due to change in employment, increase in your other obligations, or because
of any other reasons, or (c) in the event of your death. In the event of any default, at the
credit union’s option the entire balance on the Account will be immediately due in payable
in full. In addition, we may temporarily suspend your ability to obtain further credit until
the condition of default is cured. You also agree that, in case of default, you will pay, to the
extent permitted by law, all usual and customary costs of collection, including court costs
and reasonable attorneys’ fees to the extent permitted by the court involved. Late payments,
missed payments, or other defaults on your account may be reflected on your credit report.
10. Credit Information – You authorize us to investigate your credit standing when opening,
renewing or reviewing your Account, and you authorize us to disclose information regarding our experience with you under this Agreement to credit bureaus and other creditors.
11. Effect of Agreement – This Agreement contains our complete contract relating to the
Account and applies to every transaction relating to the Account even though a sales or
cash advance draft you sign or a credit slip may contain different terms.
12. Amendment of Agreement – From time to time, we may amend this Agreement by
giving you written notice of the amendment at least 45 days before it goes into effect,
unless a shorter notice period is permitted by law. The notice will be sent to your last
known address appearing in our records when it is sent and will state the date upon which
the amendment will become effective. The notice will also advise of the extent, if any, the
amendment will apply to your then existing obligations to us under this Agreement.
13. Cash Advance by Machine – If automated teller machine or other electronic devices are
available while this Agreement remains in effect which make it possible for you to obtain
a cash advance by use of your Card in such a machine, we may furnish you with a secret
personal identification number. Your use of that number, together with your Card, in
getting a cash advance from such a machine is agreed to constitute your signature for
purposes of such cash advance.
14. Severability Aspects – It is understood and agreed hereto that if any part, term,
or provision of this agreement is by the courts held to be illegal or in conflict with the
law of the state where made, the validity of the remaining portions or provisions shall
not be affected, and the rights and obligations of the parties shall be construed and
enforced as if the contract did not contain the particular part, term, or provision held
to be invalid. Except as federal law applies, Michigan law governs this Agreement.
15. Record Keeping – You hereby agree that we may keep the original of your application
and all documents that bear your signature so that we can comply with federal and/or state
law relating to loan documents we are required to keep in our file.

16. Limits – Credit limits are established by the loan officer or credit committee. Generally,
you must apply for an increase in your credit limit, for which approval will be based on
your past payment record and overall credit history. From time to time, we may provide
an increase in your credit limit based on your good standing. When this happens, we will
send you notice of your new limit. If you do not wish to be considered for automatic credit
limit increases, you must notify us of that fact in writing.
17. Security Agreement – As a condition of us granting you credit under this agreement you hereby grant us a security agreement in all present and future shares and
deposits with us, except Individual Retirement Accounts and other accounts which
provide tax benefits under federal or state laws, to secure this VISA account. Upon default
\under this agreement, you agree that we may apply all of your shares and deposits
subject to this security interest to pay amounts due on the account under this
agreement. You also grant us a security interest in collateral (other than real estate that is your
principal residence) securing other loans with us to secure credit under this agreement.
18. Statements and Notices – You will receive a statement each month showing transactions
on your account. Statements and notices will be mailed to you at the most recent address you
have given to the credit union. Notice sent to any one of you will be considered notice to all.
19. Other Charges – The following other charges (fees) will be added to your Account, as
applicable:
A. Late Fee: A late charge of $25.00 will be added to your account (VISA) if
you are 10 or more days late in making a payment.
B. Card Replacement Fee: You will be charged $5.00 for each replacement card that
is issued to you for any reason other than expiration of a current card.
C. Document Copy Fee: You will be charged $5.00 for each copy of a sales draft or
statement that you request unless such a request is made in connection with a
billing error.
D. International Transaction Fee: Your account may be charged, and you agree to
pay, an up to 1% International Transaction Fee on all transactions where the
merchant country differs from the county of the card issues (that is, for any
transaction outside of the United States). The converted transaction amount will
be shown separately from the international Transaction Fee on your billing
statement. This fee will be assessed on all international purchases, credit vouchers,
and cash disbursements.
20. Liability for Unauthorized Use – You may be liable for the unauthorized use of your
credit card. You will not be liable for unauthorized use that occurs after you notify us at
the address or telephone number set forth below. You must notify us orally or in writing
of the loss, theft , or possible unauthorized use. In any case, your liability will not
exceed $50.00. Notify us at: Alliance Catholic Credit Union, P. O. Box 4519, Carol
Stream, IL 60197-4519 1.800.828.3901.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains Important Information about your rights and our responsibilities under the Fair Credit Billing Act.
Notify Us In Case of Errors or Questions About Your Bill
If you think your bill Is wrong, or if you need more information about a transaction
on your bill, write us on a separate sheet at the address listed on your bill. Write to us
as soon as possible. We must hear from you no later than 60 days after we sent you
the first bill on which the error or problem appeared. You can telephone us, but doing
so will not preserve your rights.

If we find that we made a mistake on your bill, you will not have to pay any finance
charges related to any questioned amount. If we didn’t make a mistake, you may have
to pay finance charges, and you will have to make up any missed payments on the
questioned amount. In either case, we will send you a statement of the amount you
owe and the date that it is due.

• The dollar amount of the suspected error,

If you fail to pay the amount that we think you owe, we may report you as delinquent.
However, if our explanation does not satisfy you and you write to us within ten days
telling us that you still refuse to pay, we must tell anyone we report you to that you
have a question about your bill. And, we must tell you the name of anyone we reported you to. We must tell anyone we report you to that the matter has been settled
between us when it finally is.

• Describe the error and explain, if you can, why you believe there is an error. If you
need more information, describe the item you are not sure about.

If we don’t follow these rules, we can’t collect the first $50.00 of the questioned amount,
even if your bill was correct.

In your letter, give us the following information:
• Your name and account number.

If you have authorized us to pay your credit card bill automatically from your
savings or draft account, you can stop the payment on any amount you think is
wrong. To stop the payment your letter must reach us three business days before the
automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice
We must acknowledge your letter within 30 days, unless we have corrected the error
by then. Within 90 days, we must either correct the error or explain why we believe
the bill was correct.
After we receive your letter we cannot try to collect any amount you question, or
report you as delinquent. We can continue to bill you for the amount you question,
including finance charges, and we can apply any unpaid amount against your credit
limit. You do not have to pay any questioned amount while we are investigating, but
you are still obligated to pay the parts of your bill that are not in question.

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services that you
purchased with a credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining
amount due on the property or services. There are two limitations on this right:
(a) You must have made the purchase in your home state or, if not within your home
state, within 100 miles of your current mailing address; and
(b) The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if we mailed you
the advertisement for the property or services.

RETAIN FOR YOUR RECORDS
Ver. 4.24.14

